                     Report on Examination of Direct
                     and Indirect Costs and Rates for
                    Fiscal Year Ended March 31, 2001

                               December 2003

                     Reference Number: 2004-1C-022




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           December 8, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Examination of Direct and Indirect Costs and Rates for
                              Fiscal Year Ended March 31, 2001 (Audit #20041C0213)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       September 27, 2001, certified final indirect cost rate proposal and related books and
       records for reimbursement of Fiscal Year (FY) 2001 incurred costs. The purpose of the
       examination was to determine the allowability and allocability of direct and indirect costs
       and to establish audit-determined indirect cost rates for April 1, 2000, through
       March 31, 2001. The proposed rates apply primarily to flexibly priced contracts.
       The DCAA questioned costs of approximately $22.2 million in the contractor’s claimed
       overhead and general and administrative (G&A) expenses. The questioned costs
       include approximately $19.2 million in claimed overhead executive compensation costs
       for the contractor’s FY 2001. In addition, this questioned executive compensation
       resulted in $640,373 of questioned overhead allocation to the G&A pool. The DCAA
       indicated that the questioned costs resulted from a comparison of executive
       compensation to that of comparable positions published in executive market pay
       surveys. The DCAA questioned the executive compensation costs based on application
       of the allowability and reasonableness criteria of the Federal Acquisition Regulation
       Part 31.
       The questioned costs also include approximately $2.1 million in claimed corporate
       allocation cost. This questioned cost is the result of the DCAA’s reconciliation of the
       claimed corporate allocations to the contractor’s FY 2001 corporate audit report. The
       corporate allocations include expressly unallowable costs and are subject to penalties.
       The contractor concurred with all the questioned cost except for approximately
                                           2




$18.9 million of questioned executive compensation and related $630,476 of the
questioned overhead effect on G&A expenses.
The DCAA opined that the contractor’s indirect rates are not acceptable as proposed.
However, claimed direct costs, subject to the qualifications discussed below, are
acceptable and provisionally approved pending final acceptance.
The DCAA qualified its audit report because results of the assist audits for the
subcontract costs had not been received. The results of the assist audits may disclose
additional questioned costs. Also, the DCAA indicated that the contractor’s home office
has been cited as being in noncompliance with Cost Accounting Standard 405 for failing
to identify and exclude expressly unallowable costs from its incurred cost submission. A
final determination on this noncompliance may lead to additional questioned costs.
Additionally, the DCAA stated that subsequent audits or reviews of insurance, pension,
and other fringe benefits may supplement the findings in this report.
Although this DCAA report is dated November 14, 2002, we did not receive a copy of
the report until November 2003. Neither the Internal Revenue Service (IRS) nor the
Treasury Inspector General for Tax Administration (TIGTA) are shown on the DCAA
report distribution list, even though IRS-administered contracts were included in the
scope of the DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
